<html>
<title> - U.S.</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
               U.S.--LIBYA RELATIONS: A NEW ERA?

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 22, 1999

                               __________

                           Serial No. 106-82

                               __________

    Printed for the use of the Committee on International Relations


                              <SNOWFLAKE> 


                    U.S. GOVERNMENT PRINTING OFFICE

63-272 CC                   WASHINGTON : 2000






                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT E. ANDREWS, New Jersey
DANA ROHRABACHER, California         ROBERT MENENDEZ, New Jersey
DONALD A. MANZULLO, Illinois         SHERROD BROWN, Ohio
EDWARD R. ROYCE, California          CYNTHIA A. McKINNEY, Georgia
PETER T. KING, New York              ALCEE L. HASTINGS, Florida
STEVE CHABOT, Ohio                   PAT DANNER, Missouri
MARSHALL ``MARK'' SANFORD, South     EARL F. HILLIARD, Alabama
    Carolina                         BRAD SHERMAN, California
MATT SALMON, Arizona                 ROBERT WEXLER, Florida
TOM CAMPBELL, California             STEVEN R. ROTHMAN, New Jersey
JOHN M. McHUGH, New York             JIM DAVIS, Florida
BILL LUTHER, Minnesota               EARL POMEROY, North Dakota
LINDSEY GRAHAM, South Carolina       WILLIAM D. DELAHUNT, Massachusetts
ROY BLUNT, Missouri                  GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
THOMAS G. TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Ambassador Ronald Neumann, Deputy Assistant Secretary for Near 
  East Affair, U.S. Department of State..........................     3
Dr. Ray Takeyh, Soref Fellow, the Washington Institute for Near 
  East Policy....................................................    15
Joshua Sinai, Consultant, International Security Division, 
  Analytic Services, Inc.........................................    17
Dr. Momsour El-Kikhia, Associate Professor, University of Texas 
  at San Antonio.................................................    18
A Omar Turbi, Libyan American Human Rights Activist..............    20

                                APPENDIX

    Chairman Edward R. Royce.....................................    32
    Donald M. Payne..............................................    34
    Dr. Mohamed M. Bugaighid, Libyan American....................    35
    Ronald E. Neumann............................................    36
    Dr. Ray Takeyh...............................................    41
    Dr. Joshua Sinai.............................................    45
    Dr. Mansour O. El-Kikhia.....................................    52
    A Omar Turbi.................................................    59





                  U.S.--LIBYA RELATIONS: A NEW ERA?

                              ----------                              


                        Thursday, July 22, 1999

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:50 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(Chairman of the Subcommittee) Presiding.
    Mr. Royce. This hearing of the Subcommittee on Africa will 
come to order.
    Today, the Subcommittee will examine U.S. relations with 
Libya and Libya's growing role on the African continent. Over 
the last several months, the regime of Colonel Mu'ammar 
Qadhafi, which has lasted for 30 years has been on a diplomatic 
offensive. Having turned over two suspects in the Pan Am 103 
case, Libya has managed to have the United Nations sanctions 
against it suspended. Libya has also undertaken numerous 
diplomatic initiatives in sub-Saharan Africa.
    It is noteworthy that this upcoming September, the 
Organization of African Unity will hold an extraordinary 
session in Tripoli. Until recently Libya had been a long-time 
OAU nonparticipant. Libya is clearly moving away from its 
diplomatic isolation.
    America's rocky relationship with Qadhafi's Libya goes back 
two decades. In the 1970's commercial relations between the two 
countries were considerable, with United States-Libya trade at 
that time totaling more than $4 billion annually. During these 
years, many Libyan students studied in the United States. This 
ended when the U.S. broke diplomatic ties with Libya in 1981 
due to its sponsorship of international terrorism. Our 1986 
bombing of Tripoli in retaliation for Libya's bombing of the 
Berlin disco, which took the lives of American servicemen, was 
soon followed by the imposition of comprehensive U.S. travel 
and trade bans, which have been renewed annually.
    The bombing of Pan Am 103 over Lockerbie led to U.N. 
sanctions being imposed on Libya in 1992. The recent suspension 
of U.N. sanctions on Libya, done with U.S. approval, has opened 
the door for Libya to reestablish international air links to 
upgrade its oil industry and develop its infrastructure with 
the aid of foreign investment. The U.S. recently ended its ban 
on Libyan commercial purchases of American food and medicine.
    The Subcommittee is looking forward to hearing how the 
administration will proceed with Libya policy as the Lockerbie 
trial proceeds. While Libya's cooperation with this trial will 
be a good barometer of its future intentions toward the U.S. 
other nations, the U.S. has other issues of concern with Libya 
including its development of weapons of mass destruction and 
any current support for terrorism.
    An area of particular concern to this Subcommittee is 
Libya's role in sub-Saharan Africa. Over the years, Libya has 
provided military aid to numerous rebel groups, including the 
RUF, the Revolutionary United Front, in Sierra Leone which 
recently managed to terrorize its way into the government. 
Libya has also emerged as a diplomatic player, injecting itself 
into Sudan, the Ethiopia-Eritrea conflict, and the Democratic 
Republic of the Congo conflict. Sometimes it has done this in 
the guise of peacemaker; and sometimes it has done it as an 
arms supplier.
    It is hard to look at Libya's involvement in these 
conflicts, in many cases, as a plus. It is also hard not to see 
Libya's increasing presence in Africa as a challenge to U.S. 
diplomacy on the continent. Qadhafi's intention to have Libya 
assume a leading role in Africa should be of concern. It is 
clear that Libya's international profile is changing. What is 
less clear is whether this change is fundamental and whether 
this change is an improvement.
    Libya has the potential to significantly impact U.S. 
political, economic and security interests. Today's hearing 
should shed light on how we should proceed with Libya to 
advance our National interests. I would now like to recognize 
Mr. Payne, who is the ranking Member on this Subcommittee, for 
his opening statement.
    Mr. Payne. Thank you, Mr. Chairman, and thank you for 
calling this very important and timely hearing on Libya. As you 
have indicated, there has been many changes that recently have 
been going on. I think it is probably too early to judge where 
we are with Libya-U.S. relations.
    At the height of the Cold War, Libya rejected the Soviet 
Union as the leader of the Eastern Bloc and the United States 
as the Western Bloc because in their eyes they were all 
colonial powers. Libya followed Egypt's Nasser's lead and had 
to rely on the nonaligned movement. However, by the mid-1970's, 
Libya turned to the Soviet Union for weapons denied by the West 
and because the Soviets were more supportive of the Arab cause 
against our ally, Israel.
    Since that time, Libya has been a country, in my opinion, 
specially currently confused with its place in the 
international community. Although geographically located on the 
continent of Africa, Libya is seen primarily as an Arab nation, 
as are all of the North African countries. However, during the 
last year, in defiance of the U.N. Air embargo, many African 
leaders have traveled to Tripoli.
    Since the OAU meeting last week and the handover of two 
Libyans accused of carrying out the bombing of Pan Am 103, many 
African leaders, including President Isayas of Eritrea, 
Chairman of the Sierra Leone peace talks; President Eyadema of 
Togo; President Nelson Mandela of South Africa, immediate past 
president; and President Museveni of Uganda and President 
Taylor of Liberia, have all stated their desire for Qadhafi to 
become involved and sometimes mediate conflicts in the region. 
He has actually also offered his mediation for the India-
Pakistan conflict in addition to a number of those in Africa.
    In conclusion, let me say that I am anxious to hear the 
testimony of the witnesses before us and hope we can shed some 
light on this newly unfolding relationship between Arab-African 
nations and the United States.
    Thank you once again, Mr. Chairman, for calling this 
hearing.
    Mr. Royce. Thank you, Mr. Payne.
    Ambassador Ronald Neumann was appointed to be the Deputy 
Assistant Secretary of State for Near Eastern Affairs in 
September 1997. Prior to this appointment, he served as 
Ambassador to Algeria. Ambassador Neumann has extensive 
experience in the Near East, having also served in Iran, Yemen 
and elsewhere; and he testified before our Subcommittee in the 
last Congress on Algeria and the Western Sahara. It is good to 
see you back, Ambassador.

   STATEMENT OF AMBASSADOR RONALD NEUMANN, DEPUTY ASSISTANT 
    SECRETARY FOR NEAR EAST AFFAIR, U.S. DEPARTMENT OF STATE

    Mr. Neumann. Thank you very much, Mr. Chairman and Mr. 
Payne, and thank you for inviting me to speak to you on the 
current status of U.S.-Libya policy, an area where patience and 
our diplomatic initiatives have brought a significant success. 
It has been some time since hearings have been held on this 
subject, so if you will permit me, I will begin with just a 
brief reflection of how we got where we are.
    It is important to remember that approximately 18 months 
ago, U.N. sanctions, in place since 1992, were having an impact 
on Libya, but the symbolic dimensions, the ban on air travel 
and mandate to reduce Libyan diplomatic presence, were seen as 
increasingly futile. International support for new pressure on 
Libya was declining. Sanctions fatigue was setting in. Others 
in the region and our own allies believed it important for all 
concerned to try to bring the matter to a close, but Libya was 
coming no closer to surrendering the suspects in the Pan Am 103 
bombing.
    Against this backdrop, Secretary Albright met with the 
families of the Pan Am 103 victims in August 1997. She listened 
carefully to them, was moved by their pain, and she promised to 
do something to provide the victims and families with some 
measure of justice and closure as the tenth anniversary of the 
tragedy approached.
    We began months of discussion with the British and the 
Dutch. Our goal was to fulfill the U.N. Security Council's 
mandated requirement of a U.K. or U.S. trial for the two 
indicted Libyans. We and the British had insisted since the 
1988 bombing and the 1991 indictment that the suspects could be 
tried only in a U.S. or U.K. Court. Colonel Qadhafi had 
suggested he would accept a Scottish trial in a third country, 
and we decided to call his bluff.
    We established a Scottish court, applying Scottish law and 
providing Scottish legal safeguards in the Netherlands. This 
was no easy feat. It required new legislation to be passed by 
the Dutch parliament, an Order in Council to be adopted by the 
British Government, a U.K.-Netherlands agreement and the strong 
support of these two allies.
    On August 24 of last year, we unveiled our plan and said to 
Libya, you have repeatedly expressed support for a third-
country trial venue. As Secretary Albright said, take it or 
leave it. We expect you now, we said to the Libyans, to 
surrender the two suspects for trial before a Scottish court 
seated in the Netherlands. We and the U.K. Presented our 
initiative to the U.N. Security Council, and members endorsed 
it unanimously.
    Secretary Albright met again with the Pan Am 103 families 
on October 26 to explain the initiative. Most of the families 
supported our efforts, including most of those who had 
originally been reluctant. Secretary Albright committed that 
there would be no negotiations and that she would seek tougher 
sanctions if Libya did not surrender the suspects. We refused 
to negotiate. There was no secret deal.
    Instead, from August to April, we worked through U.N. 
Secretary-General Annan to provide clarifications, primarily of 
legal aspects, of our initiative. We assured the Libyans that, 
once surrendered, the suspects would be tried fairly and in 
strict accordance with Scottish law. We provided no guarantees 
of where the evidence would lead or how the trial would be 
conducted. The trial would be a genuine criminal proceeding, 
not a political show trial.
    On April 5, Libya surrendered the suspects, thanks in large 
part to the efforts of Saudi Arabian Crown Prince Abdullah, 
Saudi Arabian ambassador to the U.S. Prince Bandar Bin Sultan, 
South African President Mandela, Egyptian President Mubarak and 
U.N. Secretary-General Annan. But our clear determination to 
see the suspects surrendered for trial in a Scottish court was 
of critical importance.
    Upon surrender of the suspects, U.N. sanctions were 
suspended in accordance with the Security Council Resolution 
1192. I would stress that U.S. unilateral sanctions remain in 
place. Resolution 1192 also asked the Secretary-General to 
report to Council members within 90 days on Libyan compliance 
with the remaining Security Council requirements. These 
requirements, outlined in three resolutions, demand that Libya 
renounce and end all support for terrorist activities, 
acknowledge responsibility for the actions of its officials, 
cooperate with the trial and pay appropriate compensation. We 
continue to require that they those conditions be fully 
fulfilled.
    We met twice in New York, first with the U.N. Secretary 
General and the British; and then with the Secretary General, 
the British and the Libyans. We invited the Libyans to attend 
this meeting in order to make clear to them what the 
resolutions require, that we are serious about full compliance 
and that such compliance is not impossible. We also made clear 
our view that we would not agree to terminate U.N. sanctions 
until compliance had been demonstrated by Libyan actions.
    As a practical matter, we will not be able to assure 
ourselves that Libya is cooperating fully with the trial until 
after it is substantially under way.
    On June 30, 1999, the Secretary General reported to the 
Council that Libya had made assurances it would fulfill all the 
requirements, but had not yet done so. The Council responded 
with a Council Presidential statement that welcomed the 
positive signs from Libya, but confirmed that Libya had not 
complied fully, and that sanctions would not be lifted until 
Libya did. The Council expressed its gratitude to the Secretary 
General for his efforts and requested he follow Libyan 
developments and report accordingly. In other words, instead of 
acceding to calls by some for an immediate lifting of 
sanctions, the world community is now clearly on record as 
agreeing that additional requirements remain and that they must 
be fulfilled.
    The Council's unanimous position was heavily influenced by 
U.S. diplomatic efforts. We were forthright about our intention 
to veto any resolution that would have tried prematurely to 
lift sanctions.
    However, much of the world has been quick to welcome Libya 
back into the community of nations. On the political front, a 
number of nations have reestablished diplomatic relations, and 
Libya has become much more active in regional organizations, as 
you noted, sir.
    On the economic front, immediately following the suspension 
of U.N. sanctions proscribing direct air traffic to and from 
Libya, foreign airlines opened direct routes to Tripoli. 
Foreign firms have also welcomed Libya's indications of 
interest in large infrastructure projects, including in the 
petroleum sector and aircraft purchases. We have taken a 
different route, emphasizing the need for Libya to take 
positive actions to end its support for terrorism and meet all 
the requirements of the U.N. Security Council resolutions 
before unilateral or multilateral sanctions can be lifted.
    We acknowledge Libya's recent declarations of its intention 
to turn over a new page, but given its history, such statements 
are not enough. Positive actions are essential if Libya is to 
be reintegrated into the international community, beginning 
with full cooperation in the Pan Am 103 trial and full 
compliance with the remaining U.N. Security Council 
requirements.
    We recognize that Libya has publicly declared its intention 
to play an active, constructive role in regional conflicts. It 
will be important to test that this rhetoric is supported by 
constructive and consistent actions. There are several problem 
areas where Libya can demonstrate a changed attitude through 
helpful, concrete action.
    We expect Libya to fulfill all of its U.N. Security Council 
requirements: renounce and end all support for terrorist 
activities, acknowledge responsibility for the actions of its 
officials, cooperate with the trial, and pay appropriate 
compensation. Only when Libya has complied fully will we be 
able to consider lifting U.S. sanctions against Libya. Right 
now, such steps would be premature.
    At the same time, it is important to make clear that we 
have no hidden agenda. We have set for Libya clear, specific 
benchmarks that it must meet if it is to become a responsible 
and constructive member of the international community. We have 
set goals Libya can meet if it has the will to do so.
    Thank you, sir.
    [The prepared statement of Mr. Neumann appears in the 
appendix.]
    Mr. Royce. Thank you very much, Ambassador. I will ask you 
a couple of questions.
    First, we had a situation last month where the interior 
ministers from eight Mediterranean countries, including France, 
Italy, and Spain, pledged jointly to cooperate in fighting 
terrorism. Libya was accepted by the others into this group. 
How do our allies in the Mediterranean view Libya, specifically 
its commitment to fight terrorism?
    Mr. Neumann. Sir, when you say the Mediterranean, you are 
talking about both sides there, North African neighbors and the 
southern Mediterranean European states?
    Mr. Royce. Correct.
    Mr. Neumann. There is a limit to how much a foreign 
diplomat should speak for others, but I should say everybody I 
know in the region is approaching Libya with some measure of 
caution. Libya has a very long, disruptive record, and that is 
not just in its relations with us, but its relations with its 
neighbors. But I would say that its neighbors all hope that 
Libya is turning a new page.
    Now, each one proceeds in its own way, but I would say that 
there is a general mix of hope and caution in all of those 
states. The mix of that is different from state to state, but I 
think with the Europeans--for instance, Libya was allowed to 
participate for the first time in a Barcelona meeting, but with 
a sort of particular status as an invited guest that kept them 
short of being a full member and speaking; and I think that 
illustrates both sides of the caution and the hope with which 
the Europeans are pursuing relations with Libya.
    Mr. Royce. You would assume that this level of engagement 
is significant, I would assume from the fact that eight nations 
invited Libya to be part of that process?
    Mr. Neumann. I think it has certainly encouraged Libya, but 
I think the real questions lie in the future on both sides; 
that is, one, will European states proceed to give Libya the 
benefit of the doubt, if you will, moving forward on a variety 
of cooperations without any evidence of a changed behavior? Or 
will they proceed, as we are urging them to, with a bit more 
caution and care?
    The other side is the reciprocal, will Libya try to pocket 
what are symbolic, but frankly rather slender gains, and go 
right back to its old ways; or will the Libyans recognize that 
the way to a better future with the international community is 
to continue to change their behavior? That is really the most 
important question and the one which none of us, including 
myself, can answer yet.
    Mr. Royce. There is no doubt what leads these eight 
European Mediterranean powers to engagement.
    Mr. Neumann. That is certainly what they tell us.
    Mr. Royce. How will the 1996 Iran and Libyan Sanctions Act 
work if other countries, now in active negotiations with the 
Libyan Government over oil and gas concessions, make such 
investments? Do we foresee political conflict with our allies 
over this long period Ambassador?
    Mr. Neumann. I would say that we always foresee problems 
and try to avoid them, but the fact of the matter is the 
Libyan, the Iranian-Libyan Sanctions Act is still on the books. 
It is still law. We are watching very carefully. So far the 
things we have seen that we have been able to investigate have 
been either based on contracts that were signed before ILSA 
came into being, and therefore do not fall under the act, or 
they have fallen under the threshold. But this is a factual 
question which simply has to be tested against each new case as 
it comes up.
    So far, most of these things are either press stories or in 
discussion stages. It has been a very short period of time for 
things to actually get signed and things to happen on the 
ground. The particular pipeline contract, for instance, that 
has been in the press recently was actually signed before 
sanctions were levied and has been there a very long time. So 
there is now a flurry of activity, and whether or not it leads 
to something actually happening and whether that activity would 
fall under the act are both questions that just have to be 
factually determined.
    Mr. Royce. I know you touched on this in your testimony, 
but could you recap under precisely what conditions would the 
U.S. normalize relations with Libya?
    Mr. Neumann. We have come at that question from a 
particular perspective, which is simply that of what is the 
behavior we want Libya--what is the behavior we want to see 
here? We have not addressed in our internal deliberations at 
what point would one have relations, because that is a by-
product of change, and it is not the function of the actions.
    What we are trying to convey to Libya in our discussions 
with its various neighbors, what we made clear in the 
discussions in New York that Libya attended, is that we have a 
very clear, very hard set of terms that require real proof of 
real change in Libyan behavior, but at the same time there is 
no hidden agenda. There is no trap. It is in Libya's interests 
in terms of its own reintegration into the world, the 
international community, to meet those terms; and that is about 
as far as I can take you because I think the future has to be 
really a reciprocal of what the Libyans do and how they respond 
to it, and we will be proceeding based a great deal on that.
    The biggest issues in front of us are the ones we keep 
talking about now. The Libyans need to pay compensation and 
need to cooperate with the trial, they need to accept the 
responsibility of their officials and they need to renounce 
terrorism. But when we say ``renounce,'' we have a whole series 
of things we have talked to them about at the United Nations, 
what actions will demonstrate that.
    Mr. Royce. Thank you, Ambassador. My time has expired. We 
have been joined by Mr. Meeks of New York, Ms. Lee of 
California, and Mr. Payne of New Jersey, our ranking member. We 
will now go to Mr. Payne's questions.
    Mr. Payne. Thank you very much. Mr. Secretary, for your 
testimony. I understand that sanctions in April on food and 
medicine sales to Libya has been the intention to remove them. 
Has that happened yet or what process would that take?
    Mr. Neumann. Where we are, first of all, is there was a 
generic or global decision to change, at the administration's 
approach, sanctions on food and medicine. It was not a Libyan 
decision or one directed toward Libya or Libya-specific in any 
way. Libya, as do all the rest of the countries where sanctions 
apply, has benefited from that.
    I can tell you that it involves a whole bunch of different 
kinds of things. I don't think all of the directives are in 
place yet, because there is a fairly complicated administrative 
process that has to be set up. I think that is still fine. 
Details of that are still being worked out with Treasury, and I 
just want to do a factual check with my desk officer, who 
really knows those things.
    That process is moving forward. This is to implement a 
policy decision we made, but it is fairly complex to make sure 
you do exactly what you want, not something you don't want.
    Mr. Payne. Yes. I understand it was sort of global, and I 
guess it includes North Korea and Cuba and Iran and Sudan and 
the rest. My concern, and I looked at the points that you 
raised as related to what Libya must do in order for it to even 
be considered as moving back into our view of a nation; that 
is, trying to come back into the community of nations that want 
to renounce and end all support for terrorist activities, 
acknowledge responsibility for the actions of its officials, 
cooperate with the trial and pay appropriate compensation.
    Have the Libyans--has there been any acknowledgment on 
their part that any of these three conditions would be opposed, 
or have there been discussions about the conditions? What has 
been their response, if any?
    Mr. Neumann. The Libyans in a variety of forums in New York 
and in discussions with lots of different countries and in 
their public statements have basically said that they will meet 
all these conditions. There was a letter which they had turned 
over to the Secretary General in which they pledged 
compensation if the people are found guilty. They have said 
repeatedly that they will renounce terrorism. They have pledged 
cooperation at the trial.
    I think the focal point, the biggest piece of each of these 
issues is that we want to see these statements demonstrated in 
their actions. There is nothing in their statements which 
repudiates these requirements, quite the opposite; but Libya 
has a very long record of its statements and its actions not 
quite matching each other, and we think it is very appropriate 
to see that the actions match up to the statements; and we hope 
they will.
    Mr. Payne. I know that there is probably objection or maybe 
suspicion, but I am sure that there will be people in the State 
that feel that we should certainly not move forward, but in 
your opinion, if these conditions are met and if Libya begins 
to move into compliance, do you think there will still be 
objections to trying to move toward a more normal relationship 
with Libya by the U.S. official policy?
    Mr. Neumann. There are a lot of questions here, and of 
course, we haven't even touched on some of the other issues, 
like weapons of mass destruction, in general how Libya will 
conduct its relations in Africa and in the Middle East.
    You had referred, in your statement, to the questions of 
stability and stabilization. So I think that anytime you deal 
with what you do next, there are going to be some different 
attitudes among people based on where Libya is or perceived to 
be on all these issues; but I think at the end of the day there 
is a pretty general agreement that these standards are here for 
a reason, that we really would like Libya out of the terrorist 
business, and it is in our interest to see that happen. It is 
in our interest to see Libya pay compensation to the families, 
and so I think we would have to deal with the reality of those 
interests.
    Mr. Payne. We have a few friends that seem to have positive 
work relations with President Qadhafi, primarily former 
President Mandela and Saudi Arabia's Ambassador to the U.S., 
Prince Bandar, I believe his name is. Have we sought any of 
their assistance in negotiations, or do we just feel that--let 
me just tell you my interest and concern.
    Of course, as I indicated in my opening statement and as 
you alluded to, the president of Togo and the president of 
Eritrea and the president of Liberia and the president of 
Uganda and the president of South Africa have all gone up to 
Libya. Evidently, there is some connection with sub-Saharan 
Africa, and in the past it has been alleged that Libya has 
supported conflicts, rebel people and so forth. So if this 
negative behavior could be turned into a positive force in 
Africa to deal with the conflicts in Ethiopia-Eritrea, in 
Sierra Leone, those fragile, fragile agreements that aren't 
being tested, the Congo, perhaps deal with some of the 
atrocities in the Sudan, at least--that would be a positive 
step at least for sub-Saharan Africa; and that is my concern 
and interest about whether we believe that Libya is moving 
truly in the right direction, because, if indeed there is some 
influence on these nations and evidently to have some influence 
by virtue of these presidents visiting Libya, then that could 
be perhaps turned into a positive influence on a continent 
which has had many years of conflict. That was primarily my 
interest.
    Mr. Neumann. It is a very valid question and concern, and 
we are in a very interesting period right now. Our view has 
been that Libya has been a very unhelpful state in the past in 
its actions in the Congo, in Ethiopia and in Sudan and Sierra 
Leone. Recently, the Libyans have made a whole set of 
statements about an interest in stability. They have made 
comments favoring the peace agreement in Sierra Leone. For us 
the question now is, will the actions be congruent with the 
statements; and we really don't have enough information, and in 
many ways there just hasn't been enough time to have actions 
take place, let alone to find them out if they are secret. So 
it is something to which we are paying a lot of attention.
    We would very much like it if the actions do measure up to 
the words, but at the same time, we are determined that we are 
not going to be trapped in analyzing actions one way or another 
because we want them to come out some way. They have to speak 
for themselves.
    Mr. Payne. Thank you very much. Appreciate your comments. 
Thank you.
    Mr. Royce. I am going to ask Mr. Meeks and Ms. Lee if 
either has an opening statement before we go to their 
questions.
    Does either of you have an opening statement you would like 
to make?
    OK. Mr. Meeks of New York.
    Mr. Meeks. My question is somewhat along the same line of 
where Mr. Payne left off. I am concerned with reference to us 
possibly being isolated with reference to our relationship to 
Libya.
    Libya has always pumped oil to Western Europe, and recently 
Great Britain has resumed diplomatic relationships with Libya, 
and the U.N. Has temporarily removed sanctions because they say 
that they stepped forward, and we do see that, for example, 
when our policy was wrong in South Africa, Libya's policy was 
right in South Africa, and they are doing what appears to be 
the main thing, at least working in the African continent.
    Could we set a standard that is too high, that the country 
may never be able to meet, and we become the isolated country? 
Libya's economy--we have sanctions, but their economy, they 
expected a surplus budget this year. What effect are we having 
at all with our policy, and if we don't set a timetable or look 
at some of the other good things that they may have done, how 
will that affect our relationships diplomatically also?
    Let me just say this finally, because the British 
Government said, the best way to deal with someone you had 
problems with is to talk with them; and if we are not talking 
with them, you can't resolve problems.
    Mr. Neumann. I think you put your finger on a very 
important point and one that perhaps didn't get quite enough 
attention earlier. In the period before our initiative, this 
question of isolation was very much there. I think the 
initiative we took with the British was very successful in 
reversing that, and in fact, the resolution of the Security 
Council 1,192, which endorsed our approach to a trial in a 
third country and made it into a resolution, made it official, 
was unanimous, the first unanimous move on Libya in quite some 
time, and it added to the pressure on Libya.
    As we have gone forward, this is at times a little 
delicate. We went into the last review of lifting sanctions, 
which is a strange exercise in a way because you are lifting 
something which does not exist in practice, but nevertheless, 
there it is; and there were some big worries that we would be 
isolated in the Council. There were also some worries expressed 
by some people here insisting, by God, we have to veto no 
matter what, and we were aware of both.
    We determined that it was premature to lift sanctions until 
we had the standards met, but we proceeded in a way which I 
think was fairly successful. It was diplomacy at its best. We 
worked with the issues with the various states. We worked it 
with the British. We had a unified position with the British, 
and in the end of the day, we had a Council position that 
recognized that Libya had not yet done everything it needed to 
do. So we actually came out with a consensus statement and not 
one of isolation.
    At least we are not isolated yet. In fact, I think we are 
much less isolated than we were.
    The point that we are trying to get across not only to the 
Libyans, but internationally is exactly the point that you 
touched on, Mr. Meeks, that we are not setting the bar too 
high, that we are asking for very specific actions which Libya 
can make, and one of the reasons that we chose to have the 
meeting in New York with the British and the Secretary General 
and to invite the Libyans to that meeting was exactly for this 
purpose, to lay down in clear and very specific fashion the 
actions that would meet these criteria on compensation, on 
renouncing terrorism, responsibility and cooperating with the 
trial, so that, on the one hand, it is clear that this is not a 
sliding yardstick that we intend to play with, but on the other 
hand, it is clear to the Libyans that it has real meaning and 
intention, there are real things there that they have to do.
    I think one of the first ones is the question of 
cooperation with the trial. I have great respect for the Scotch 
prosecutors who are going to conduct this trial, and I think 
they deserve every bit of backing to insist that if they say 
the Libyans need to hand over something for the trial they 
should get it, but if they get it, that is cooperation. So 
there are two sides to that, but I think the way we are 
proceeding is prudent, and I think it does take into account 
some of those concerns you raised.
    Mr. Meeks. My last question is, what road, if any--we just 
recently had the new prime minister of Israel visit us here and 
give us his vision for peace within the next 15 months. What 
role, if any, do you think that Libya and Mr. Qadhafi can play 
in that?
    Mr. Neumann. Mr. Qadhafi is saying he is becoming more 
supportive of Mr. Arafat and the Palestinian authority in the 
pursuit of peace. That statement is useful. I come back, of 
course, again and again to the fact that we have so many Libyan 
statements so recently about change that we need to measure 
them.
    There was, for instance, an article published in Alhayat, 
one of the well-read Arab newspapers out of London, in which it 
was reported that Libya was telling a number of the 
rejectionist groups that they had to stand down and support the 
peace process; and I can tell you that in our efforts to follow 
up on that that the Palestinian authority believes this story 
has some truth to it. We don't yet have our own evidence.
    If Libya is walking away from these groups or telling them 
to move in a different direction, and particularly if the 
Syrians are doing the same thing, as has been recently 
reported, that would be a pretty significant move, but these 
things must be checked out. They can't be assumed to be fact 
because one reads about them. So we need time, we need careful 
attention to see if the actions back up the words.
    Mr. Royce. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. This is a very 
informative hearing, and I appreciate being able to participate 
in it.
    Mr. Ambassador, I understand the notion that actions speak 
louder than words, and I certainly believe that we can't 
tolerate terrorism wherever it exists. Let me ask you a couple 
of questions with regard to our policy and our relationship 
with Libya. As Mr. Payne and Mr. Meeks have mentioned, Libya's 
role on the continent of Africa is an important focus.
    Colonel Qadhafi, has been supportive of many of the 
liberation movements in Africa, at the same time that the 
United States, for instance, had actually banned and indicated 
that the ANC in South Africa was illegal, was a terrorist 
organization. Very recently Mr. Mandela played a very positive 
role in the Pan Am bombings and, the handing over not the 
Lockerbie bombing suspects.
    How can Mr. Mandela be useful to the United States on the 
continent of Africa in making sure that the peace process is 
moved forward? I in listening to you today, I feel optimistic, 
and I also know that the U.S. could be an obstacle if we don't 
believe all of the conditions are being met. I want to make 
sure that the role that Libya is playing on the continent of 
Africa is not subverted or hindered by the U.S. not having 
full, normal relations.
    Mr. Neumann. I guess I would have to say that I hope it is 
not the case.
    I think there are two pieces of this. One is what is that 
role? It has been a very unhelpful role in the past. If it is 
now becoming a more helpful role, if it is now going to be a 
fact that they will really do things to support peace in Sierra 
Leone, that they will really stop adding weapons to the 
Ethiopian-Eritrean conflict and stop fishing about with the 
situation in the Sudan, I think we will become aware of that, 
and certainly those are actions we want to encourage.
    I think there is an interesting case with Mr. Mandela, 
although, because of the way we are organized geographically--
and the State Department is a little different from the way the 
Committee is organized. I don't have primary jurisdiction for 
anything south of the Sahara, and my African bureau colleagues 
probably want to keep it that way, but we had a period where we 
found that Mr. Mandela's personal loyalty to the backing he had 
received from Mr. Qadhafi was a little irritating when we were 
trying to keep sanctions in place.
    Then you had a very active involvement by Mr. Mandela, as 
well as by the Saudis, which I recognized in my testimony and 
which was very helpful in reassuring the Libyans, as far as we 
understand what went on, that we did not have a secret agenda 
and that in fact it was in their interest to meet the 
international requirements to turn these people over.
    We tried to be very clear with both South Africa and Saudi 
Arabia throughout that period, look, these are the things we 
mean, this is what we will do and this is what we will not do, 
please don't go tell the Libyans that we are going to move 
faster or do things that we don't intend to do. We tried to be 
very careful that nobody in their own dealings, in their own 
desire to be helpful would spin anything beyond what we were 
prepared to do. So we were very up front with them.
    I don't know what they said to each other in those 
meetings, but I think--the reason I raise this is because I 
think part of the question will be us, how do we respond to 
Libyan actions. Part of the question will be, Libya, what 
actions do they take, will they really move forward on these 
things; but also part of it is going to be whether 
intermediaries like South Africa keep a clear eye on where we 
are and don't misperceive it--Libyans don't misperceive it, 
because you can get a lot of miscommunication out of things 
like that.
    We are looking at each other over a 20-year gap of enormous 
suspicion, and we have been through some of this before. I was 
reviewing the record when we got into this and there was a 
period where Libyans in the early 1980's were insisting on 
their desire, or late 1970's were insisting on their desire for 
better relations and wanting to buy things and do various 
things. The only problem is, they were planning on killing a 
couple of our Ambassadors at the very same time. We didn't 
think these were actions were really congruent with what they 
were saying.
    They are talking about a very different approach. You read 
some of the things that Colonel Qadhafi is saying in interviews 
about a new approach to Africa and a new situation that 
requires a new approach. They are very interesting. There are 
other things he says about the American hegemony and how we 
have to be protected against them that are a little more 
worrisome.
    It is not a full answer to your question, but it is as far 
as I can take it.
    Ms. Lee. Thank you very much for that answer. I appreciate 
it, and I am learning more about U.S. policy toward Libya, as I 
listen to you today. Let me ask you another question regarding 
the 1986 bombing that killed Colonel Qadhafi's daughter. Is the 
bombing a factor in the discussions, or in our efforts now, as 
we try to normalize relations between the United States and 
Libya?
    Mr. Neumann. It is not a factor in our diplomatic actions. 
Those are exactly where I have put them. It may be a 
psychological factor with Qadhafi. He talks about it in 
interviews, he talks about it with people he meets, but beyond 
that you would have to be a psychiatrist or a sociologist, 
rather than a diplomat, I think, to have a more dependable 
answer to your question, but we bombed in retaliation for his 
bombing us. There were casualties. We felt and do feel that 
that was legitimate action at the time in view of the attacks 
on us.
    Ms. Lee. Thank you very much.
    Mr. Payne. Would you yield a second? I was just curious 
about that, and the fact that you had asked that question, that 
it did seem to go a step beyond the retaliation. I think there 
perhaps should be retaliation, if someone strikes you in world 
politics and world conflicts you generally have to strike back 
or you will find yourself continually struck at, but it did 
seem to be a turn in policy where personal families were done. 
I recall Joshua N. Cuomo was attempted to be killed by the 
South African security forces when he was living in Zambia and 
they moved up and blew his house up; but he was not there, 
fortunately for him, and it was talked about as a new low in 
world leaders fighting each other in combat to go to the 
personal home and try to kill the family, and so I just thought 
that was sort of a turn in war to go at the individual and the 
family.
    Mr. Royce. If you could yield, though. It was my 
understanding that we lost a couple of servicemen and that this 
particular individual gave the order to kill our U.S. 
servicemen. The reason he was targeted was because we lost U.S. 
servicemen, who were assassinated in Berlin under his orders, 
and so when you have identified the source of who has given the 
order to assassinate U.S. troops, it would seem to me you are 
better served--I am afraid we are getting off of the topic 
here, but I am going to speak to this--you are better served by 
identifying the target who gave the order rather than bombing 
his people. It doesn't make a lot of sense to try to identify 
anyone other than the individual who gave the order for the 
assassination.
    From my standpoint, I happened to visit the White House. I 
was in the State Senate, but I remember speaking to President 
Reagan on that day that we undertook that bombing, and I will 
say that it didn't seem to be a nonsequitur to me. There was a 
direct correlation. He gave the order to kill U.S. troops, and 
there was a countermanding order as a deterrent in the future 
to anyone else who would try to do that.
    Mr. Payne. I agree and I feel the same way you feel about 
the loss of our servicemen.
    There has been war since the Crusades, 1400's. Someone 
gives--the leader, heads of state give commands to do actions, 
and it doesn't make any head of state right by doing it, but my 
point was that in war you fight wars, you fight against armies 
and you do bomb cities, as was done in World War II, Hiroshima, 
and Nagasaki, but to go after a family, that is my--I oppose 
war in general, period, but the fact remains that it was not 
the first time that there were casualties of a country, that 
did not go after the immediate family of that country.
    That is my whole point, and I feel the same way about the 
loss of our soldiers also, so don't get me wrong there. I was 
just talking about the manner in which you prosecute a war. War 
is bad, but for it to be prosecuted by going to the home, the 
White House of the head of that nation, I just wouldn't want to 
see that happen in wars in the future in our country. If we 
give a command to attack someone I wouldn't want anyone to go 
to the White House, whoever is in the White House, to bomb it.
    Mr. Royce. I thank you, and I thank the Ambassador for his 
testimony here today. Now we will go to the next panel at this 
time. Thank you, Ambassador Neumann.
    Mr. Neumann. Thank you for giving me the opportunity.
    Mr. Royce. We will ask our second panel to take their seats 
at this time.
    I will mention to our witnesses that Members of the 
Committee have your statements. We appreciate your coming so 
far to testify. We have people from all over the United States 
that have come today for this testimony. We thank you. We are 
going to ask you, since we have your original testimony and 
have read that to summarize your testimony. We are going to 
hold you to 5 minutes for your original statement.
    I will briefly introduce our panel. Dr. Ray Takeyh is a 
Soref Research fellow at the Washington Institute for Near East 
Policy. He obtained his Ph.D. in Modern History from Oxford. He 
has authored numerous articles in prominent journals and 
newspapers and is the author of a forthcoming book, The Origins 
of the Eisenhower Doctrine: The United States, Britain, and 
Nasser's Egypt.
    Dr. Joseph Sinai is a specialist on international security 
issues, particularly the military capability of developing 
world states, the proliferation of weapons of mass destruction 
and low-intensity conflict. He has published several articles 
about Libya's weapons of mass destruction, and his articles 
range from the Washington Post to Jane's Intelligence Review. 
He is currently a consultant to the International Security 
Division of Analytic Services, Incorporated.
    Mr. Omar Turbi is a Libyan-American born in Derna, Libya. 
He is a founding Member of the Libyan Human Rights Commission, 
a nonpolitical human rights organization. He is also an advisor 
to the American Arab antidiscrimination Committee, the largest 
Arab-American grass-roots organization, and he has done work 
with the World Conference on Human Rights. Mr. Turbi holds 
degrees in engineering and international relations and 
business.
    Dr. Mansour El-Kikhia is an Associate Professor of 
Political Science at the University of Texas in San Antonio. He 
has written exclusively on Libya, and he is author of Libya's 
Qadhafi: The Politics of Contradiction.
    We welcome you to the Subcommittee and look forward to your 
remarks, but again, please do that within the timeframe of 5 
minutes.
    Mr. Royce. We will start with Dr. Ray Takeyh.

  STATEMENTS OF DR. RAY TAKEYH, SOREF FELLOW, THE WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Takeyh. Thank you, Mr. Chairman, for inviting me today, 
and I will keep my comments as short as possible.
    As the Members of the Committee know, Mu'ammar Qadhafi has 
recently proclaimed his affinity for pan-Africanism and has 
seemingly ushered in a new era in Libya's foreign policy. In 
the recent months, Colonel Qadhafi has emerged as a mediator of 
various African crises and has held a series of high-level 
discussions with a variety of African leaders. The critical 
question is whether this is a new era and whether Qadhafi's 
policy will contribute to regional stability. After decades of 
professing Arabism, Qadhafi's African orientation, is it 
genuine or not?
    Libya's policy toward continental Africa can be, I think, 
conveniently delineated in two specific stages, the 
revolutionary stage and the more pragmatic one. The 1970's and 
1980's can be viewed as the height of Libya's revolutionary 
activism as Qadhafi sought to undermine a series of regimes 
that he found ideologically objectionable. In the 1990's, 
Qadhafi's international isolation has induced a more pragmatic 
policy toward the continent. A more detailed survey, a 
relatively more detailed survey of Qadhafi's approach toward 
Africa would reveal that whatever posture the colonel embraces, 
he has long perceived African and Third World interests as best 
served through a recession of Western power.
    Libya's policy in the 1970's reflected the primacy of 
ideology in Qadhafi's calculation. Soon after coming to power 
he became an important source of opposition to conservative 
African regimes, but also generously supported liberation 
movements in South Africa, Rhodesia and Angola. At a second and 
complementary level, Libya emerged at that time as an important 
supporter of Islamism through establishment of the Jihad Fund 
and Islamic Legions. The essence of Qadhafi's policy in the 
1970's was to assist all forces that sought to destabilize pro-
Western regimes and foster a new alignment in Africa.
    The 1980's, the aggressive nature of Libya's policy was 
denoted by its intervention in Chad and continuous interference 
in internal affairs of sovereign countries. This caused much 
disenchantment throughout Africa. In the meantime, Libya's 
propagation of Islam exacerbated internal religious divisions 
in states which are religiously diverse, such as Sudan. Even 
Libya's foreign aid became a source of contention as it arrived 
with ample strings and reflecting Tripoli's determination to 
gain access to natural resources of other states.
    In the 1990's, Qadhafi has encountered enormous difficulty. 
The decline of the petroleum market has crystallized Libya's 
structural economic problems. On the international level, Libya 
found itself under a debilitating sanctions regime and 
international ostracism arising from the 1988 Lockerbie affair. 
The confluence of these factors led Qadhafi to embark on 
reorientation of his policy and rebuild his base among the 
nonaligned countries, particularly African. A more chastened 
Qadhafi departed Chad and intimated to the OAU his readiness to 
accept rules of conduct. In turn, the OAU was the first 
regional organization to defy the sanctions, and President 
Nelson Mandela took the lead in resolving the Lockerbie crisis 
and lifting sanctions.
    The post-Lockerbie period has witnessed a continuation of 
Libya's pragmatic diplomacy. Qadhafi, as mentioned, has emerged 
as a leading mediator of the Great Lakes crisis and of course 
the conflict in the Horn of Africa. The colonel brokered the 
accord leading to the departure of Chadian forces from Congo 
and an apparent reconciliation between Congo and Uganda.
    Qadhafi has also been instrumental in attempting to 
convince the many internal factions in Congo to resume 
discussions and arrive at some sort of reconciliation. Although 
less successful in resolving difficulties between Ethiopia and 
Eritrea, Qadhafi has attempted to facilitate negotiations 
leading to a compromise accord. The critical question is 
whether Qadhafi has abandoned his revolutionary radicalism and 
ceased basing his policy on uncompromising ideological 
precepts.
    The most plausible explanation for Qadhafi's activism in 
Africa is that it is part of a comprehensive diplomatic 
initiative that encompasses both Africa and the Arab realms. 
The basis of this new diplomacy may still the Lockerbie affair. 
Despite Qadhafi's feigned indifference to the trial, Lockerbie 
does loom large in his calculations.
    It is important to stress, as Ambassador Neumann did, that 
the arrest of the two suspects does not end the Lockerbie 
issue, as ebbs and flows of the trial can still affect the 
sanctions regime. The United States and international community 
have refused to permanently lift the sanctions, which implies 
that implicating evidence arising from a trial or a potential 
conviction of the suspects could still expose Libya to an even 
more stringent sanctions regime.
    In any potential conflict with the United States, Qadhafi 
will require the aid of the African states and the support of 
OAU. At any rate, the rehabilitation of Libya's image on the 
continent and construction of alliances buttressed by aid could 
prevent Libya from being isolated, should the Lockerbie crisis 
resurface.
    At a second level, Qadhafi may be attempting to exploit the 
crisis to further his strategic goals; certainly the coalition 
of states, Angola, Zimbabwe, Sudan, Namibia, that support 
Kabila's regime in Congo have close relations with Libya. In 
the meantime, Qadhafi's relationship with Kabila goes back to 
the 1980's, when he was one of the few states to support his 
obscure rebellion. Certainly Kabila in power is consistent with 
Qadhafi's ideological and strategic designs, and it gives him a 
base in central Africa and an important ally in the OAU. In the 
meantime, the Horn of Africa has been the scene of competition 
by many states, including Egypt. A resurrected Libya may view 
its diplomatic initiatives as a means of asserting its 
influence in a region that is admittedly critical to security.
    It is undeniable that Libya in the post-Lockerbie period 
has played a constructive role in Africa. To escape his 
international isolation, Qadhafi has embarked on certain 
pragmatic shifts of power. However, it is too soon to accept 
the rhetoric of mediation as evidence of a fundamental Libyan 
reorientation. Qadhafi is an ideology who genuinely believes in 
the applicability of his ideas to the Third World. More than 
any other leader, Qadhafi has not made the transition from a 
revolutionary to a statesman. Although capable of much 
alteration, Qadhafi's historical conduct has to be viewed as 
part of his record, and it is still unclear to determine 
whether Libya has dispensed with its radical heritage and 
assumed a responsible position in the community of nations, but 
we should approach Libya with a more open mind, assume the 
possibility of Libya beginning to move in a positive direction 
and acknowledge those steps.
    Thank you very much.
    [The prepared statement of Mr. Takeyh appears in the 
appendix.]
    Mr. Royce. We now go to Dr. Sinai. We do have your 
testimony, so if you will, please abbreviate it to 5 minutes. 
Go ahead, sir

 STATEMENT OF JOSHUA SINAI, CONSULTANT, INTERNATIONAL SECURITY 
               DIVISION, ANALYTIC SERVICES, INC.

    Mr. Sinai. Thank you very much for providing me an 
opportunity to address the Subcommittee on the subject of 
Libya's weapons of mass destruction program. This a topic that 
unfortunately has received very little attention in the media, 
public policy and academic communities, but which I believe 
deserves close scrutiny because Libya has one of the most 
ambitious chemical and biological weapons programs in the Third 
World.
    Libya is on the verge of succeeding in developing a weapons 
of mass destruction capability in the form of chemical and 
biological weaponry and the ballistic missiles to deliver them. 
The $25 billion Great Man-Made River Project, massive network 
of underground pipes are reportedly connected to some of the 
chemical and biological facilities, particularly the Tarhuna 
chemical weapons facility.
    However, Libya's chemical and biological weapons program 
has received very little international attention, while much 
attention has been paid to the large-scale chemical and 
biological programs of Iran and Iraq and an alleged terrorist 
group-affiliated chemical weapons plant in Sudan. In fact, 
according to published accounts, Iraq has sent several 
contingents of scientists and technicians to work at Libyan 
chemical and biological weapons facilities, either to assist in 
accelerating Tripoli's CBW Program or to evade international 
inspection of its own CBW facilities.
    As a result of these developments, while Libya is 
threatening to become a proliferator of chemical and biological 
weaponry, it is also emerging as a facilitator for other rogue 
states' CBW Programs. In the area of developing a nuclear 
weapons capability, or long-range ballistic missiles, however, 
the Libyans have not been as successful in CBW because of post-
Pan Am 103 international nonproliferation sanctions and a lack 
of adequate financial or indigenous resources or manpower 
expertise.
    It is particularly significant today to investigate the 
actual threat potential posed by Libya's chemical and 
biological weapons program in light of several recent 
developments that appear to indicate a willingness by Libya to 
reenter the international community as a peaceful nation. At 
the same time, however, there have also been several news 
reports about impending deals by Libya to acquire a nuclear 
reactor from Russia and the latest No Dong ballistic missile 
from North Korea, which would indicate that it has no intention 
of reducing its efforts to construct an ambitious weapons of 
mass destruction program.
    There is a great need to investigate and assess the extent 
of the progress made by Libya's chemical and biological weapons 
program, including the nature of Libyan leader Mu'ammar 
Qadhafi's motivation in developing such capability. Such an 
understanding is necessary in order to formulate effective 
countermeasures and policies.
    Because of time restrictions, I am speeding through my 
remarks.
    The Libyan biological weapon program is reportedly in the 
early stages of research and development primarily because the 
country lacks an adequate scientific and technical base. 
However, it is reported to be on the verge of developing an 
indigenous biological weapons capability.
    Libya's chemical weapons program is considered to be its 
most successful WMD effort. Its chemical weapons capabilities 
are concentrated in the Rabta and Tarhuna plants and include a 
stockpile of up to 100 tons of chemical agents.
    Tarhuna is the most significant chemical weapons facility 
in Libya, and unfortunately, very little has been published 
about it in the open press. Libya's efforts to acquire chemical 
and biological weapons are matched with an ambitious program to 
acquire or indigenously develop long-range ballistic missiles 
with a range of more than 1,000 kilometers.
    As I have stated in my presentation, there are a number of 
areas in Libya's weapons of mass destruction program that 
require close international scrutiny.
    Thank you.
    Mr. Royce. Thank you very much, Doctor.
    [The prepared statement of Dr. Sinai appears in the 
appendix.]
    Mr. Royce. Dr. El-Kikhia.

  STATEMENT OF EL-KIKHIA, ASSOCIATE PROFESSOR, UNIVERSITY OF 
                      TEXAS AT SAN ANTONIO

    Mr. El-Kikhia. Yes. Thank you very much for inviting me to 
speak before you today. If I may, I would not like to give a 
summary of my paper. You already have it, so I want to talk 
about something else, if possible, and I want to discuss just a 
few things in the 5 minutes that I have of my impression of 
what Mr. Neumann said in the conversation between you and him.
    I really was impressed, first of all, by what Mr. Payne 
said, and Mr. Meeks said as well. They made excellent points. 
First of all, your point is quite right and I think that 
perhaps it is a bit too early to even discuss the future of 
U.S. relations on the one hand, because we don't have all the 
facts.
    The second point, Mr. Meeks says that I think you are very 
right there, too, because the country that is being isolated is 
the United States, not Libya. There was an embargo on Libya for 
quite some time, but the majority of the embargo was dealing 
with air travel. Libya could still buy stuff on the market. Who 
benefited from this? The truth of who benefited: our allies. 
The Germans were still selling to him, the Italians were 
selling to him, even the British were selling him goods, 
perhaps not certain commodities that the embargo restricted, 
but on the other hand, it was an open market. True, the people 
who suffered most were Libyans because they could only travel 
through Egypt and Tunisia, and those two countries boomed as 
well.
    As far as European business, European business flourished 
within Libya itself. American companies were excluded, of 
course. Initially, there were a number of loopholes during the 
Bush administration which were closed when Mr. Clinton came to 
power, shutting out American companies from dealing in Libya, 
but Europeans filled the gap very quickly. The Man-Made River 
that my colleague talks about over here was constructed by a 
Korean company.
    Let me put some things in perspective. First of all, we are 
talking about a country that has less than 5 million people 
with an annual income less than what Americans spend on pet 
food annually. Let us look at things in the correct shape.
    Libya's intervention in Africa is not really due to Libya's 
strength in Africa as much as it is due to American weakness 
there. We have, until now, left the arena open for any country 
to engage in African affairs. We have left Africa out of our 
foreign policy. I was hoping that when Mr. Anthony Lake, the 
National Security Advisor for Mr. Clinton, as an Africanist, 
would in fact be more involved in Africa; but unfortunately, 
no, America was not involved in Africa. We have thus far relied 
on two allies, on the French and the British, saying this is 
their sphere of influence, forgetting that the Africans dislike 
precisely those two countries.
    When we talk about how come Qadhafi helped support these 
terrorist movements, or which we call ``terrorist movements''--
indeed, we once considered the ANC as a terrorist 
organization--but when we have to look seriously, we supported 
a dictator like Mobutu Sese Seko that led to cleptomanic regime 
for so many years, and then we are surprised that somebody else 
would support revolution against Mobutu. We shouldn't be. So we 
have left, in fact, that vacuum for other countries to fill in 
Africa.
    Libya is a small country. Its military is antiquated. It 
still uses Soviet weapons of 1970's vintage, and those weapons 
have demonstrated their ability in the Gulf War. Even far more 
sophisticated weapons could not stand up to America's might or 
European might. So let us put things in context.
    Libya is not a country that is going to destroy the world. 
Its income is limited. Its population is limited. Its leader 
has fancy ideas and lots of dreams, but after all, I think they 
are merely dreams. If America wants to put an end to Qadhafi in 
Africa, then it must pay attention to Africa because the 
continent is poor, and any little bit of funding which Qadhafi 
has--and he only has a little bit of funding--can make a very, 
very big difference.
    Let me stop here and perhaps we can talk a little bit more 
about that.
    Mr. Royce. We thank you, Doctor.
    [The prepared statement of Dr. El-Kikhia appears in the 
appendix.]
    Mr. Royce. Mr. Turbi.

    STATEMENT OF A OMAR TURBI, LIBYAN AMERICAN HUMAN RIGHTS 
                            ACTIVIST

    Mr. Turbi. Thank you very much. Mr. Chairman. I will be 
delivering a brief statement to my prepared statement. I am 
quite honored to have the opportunity to appear before your 
distinguished Committee.
    I am really proud to be a Libyan American, and believe me, 
I have every reason to be. I started a business about 15 years 
ago with absolutely no money. Today, I do business in more than 
50 countries around the world, thanks to the land of 
opportunity, freedom and democracy.
    Over 10 days ago I took my three boys, who are behind me 
here, to the Women'S World Cup, and I am sure we all watched 
it, enjoyed it immensely; and throughout the game I felt and 
was engulfed with an immense emotional feeling that brought 
tears to my eyes. There was a large group of Chinese Americans 
sitting not too far away from us, waving the Chinese flag and 
supporting their native team, and every time they waved the 
flag, my little boys, one who is only 8 years old, would say, 
``Dad, yell `democracy' to those Chinese people. Yell 
'democracy' to those Chinese people.'' I hope someday I will 
see a Libyan and an American team under the same setting. I 
hope someday that we can do that.
    I am truly happy to have and take part in these hearings as 
an advocate of normalizing our relationship with the Libyan 
regime and the Libyan people through constructive engagements. 
The handing over of the two Libyan suspects and suspension of 
sanctions are positive steps toward that goal.
    American history would remind all of us here that we 
engaged the Libyans, as a matter of fact, as early as the year 
1801. The United States Treasury then was paying as much as 
one-fifth of its annual revenue to Tripoli and the Barbary 
Coast pirate states as ransom for captured American officials 
and for the safe passage of American ships in the 
Mediterranean.
    Another piece of the American Libyan history is the dress 
uniform sword carried by our Marine officers today and its 
Libyan origins. I am also reminded every time I hear the Marine 
march line singing ``From the Halls of Montezuma to the Shores 
of Tripoli.''.
    Ladies and gentlemen, such historical ties between 
Americans and Libyans spanning 200 years must set the tone for 
a constructive engagement. Our dialogue with China resulted in 
a flourishing business relationship, other examples like 
Vietnam, Cambodia, and South Africa. Let us not forget some of 
the best trading partners today were our enemies in World War 
II, namely, Mussolini-Italy, Japan, and Germany.
    Ladies and gentlemen, U.N. sanctions and embargoes on Libya 
imposed as far back as 1981 crippled the economic structure and 
social fabric of the Libyan people, degraded the quality of 
life and exasperated human rights efforts.
    I would call for an immediate lifting of U.N. sanctions and 
the gradual--and I emphasize the word ``gradual''--move toward 
the eventual total normalization of relations with the Libyan 
regime. This would be in the interest of the American and 
Libyan people.
    We must also pay attention to this. A policy based on 
enlightened self-interest is far superior to one driven by 
strictly economic or political interests alone. Let our foreign 
policy be consistent with American values. The requirements for 
civil society must supersede narrowly defined endeavors.
    The Libyan people, ladies and gentlemen, are presently in a 
quandary, and I really mean it. On the one hand, they suffered 
and are barely recovering under crippling U.N. sanctions that 
lasted nearly 10 years, while at the same time, they are 
oppressed by a brutal regime which has exhibited and continues 
to exhibit total disregard for human dignity. Freedom of 
speech, expression and assembly are nonexistent, and I am very 
disappointed that nobody here has talked about human rights 
issues in Libya so far.
    To move forward with full normalization and without regard 
to the human rights dimension would be un-American. Lip service 
alone will not do, and I emphasize that. We must set specific 
conditions prior to total normalization that should include the 
immediate release of all conscience and political prisoners; 
the establishment of a fact-finding committee to visit with 
prisoners; and the call for gradual implementation of 
democratic reforms. It is in the best interest of America and 
the Libyan people to call on the Libyan regime with such 
conditions now. If we do not aggressively pursue these goals at 
this time, the Libyan regime will assume that we acquiesce its 
ill treatment of its people, and that would be a tragedy.
    Thank you.
    Mr. Royce. We will take note.
    [The prepared statement of Mr. Turbi appears in the 
appendix.]
    Mr. Royce. We have been joined by three of our colleagues: 
Mr. Campbell of California, Mr. Tancredo of Colorado, and Mr. 
Chabot of Ohio, and I want to thank all of our four witnesses 
for making the trip out here and for their statements.
    At this time, I will ask a couple of questions Dr. Takeyh, 
you mentioned the peace efforts in the Democratic Republic of 
Congo. Libya has offered peacekeepers to this conflict. Given 
the recently signed Congo peace agreement, is it likely that 
Libya will have a future role in the Congo?
    Mr. Takeyh. I think, to take the point of Dr. El-Kikhia, it 
is important not to exaggerate. Libya did send 60 to 70 
peacekeepers to Uganda, and they have not left their hotel room 
yet. It is possible that Libya will have a role in the 
peacekeeping missions, but that depends to an extent on 
American consent and acquiescence, and thus far, the United 
States has intimated that it will not accept Libyan 
participation in such multilateral efforts, but it is unlikely 
that Libya can resolve the Congo crisis on its own. It is 
certainly unlikely Libya can exacerbate it. The crisis in 
central Africa is enormously complex, and it reflects a 
confluence of factors, institutional decay, the decomposition 
of state in Congo.
    Libya can potentially play a marginally constructive role, 
but not a substantial role in any efforts in Congo, and those 
efforts are being spearheaded by the South African development 
community, led by Zambia and, of course, South Africa itself. 
Libya can be an adjunct to those efforts and can potentially 
have a useful role, but not a substantial or a negative or a 
positive.
    Mr. Royce. Thank you, Doctor.
    Mr. Turbi, in your testimony you advocate lifting sanctions 
on Libya and gradually normalizing diplomatic relations with 
Libya, with this normalization basically being pegged to the 
advancement of human rights in Libya.
    What if Libya does not make progress? Would this be a 
reason to freeze any movement toward normalization, and could 
you maybe just tell us a little more in terms of your 
suggestion--of how the State Department might tie this to 
advancement of human rights?
    Mr. Turbi. I think, having listened to the Honorable 
Ambassador Neumann earlier on speak of the limited engagement 
that the U.S. Administration has had with Libya, I am somewhat 
disappointed in the fact that we all live on a small planet. A 
lot of enemies talk to each other, and I advocate the 
following: that we must have direct human and constructive 
contact with the Libyan regime, irregardless of how bad we 
think they might be.
    I must caution that in promoting anything that we want to 
promote with the Libyan regime is to make sure that we are not 
viewed by the regime that are in pursuit of toppling the 
regime, either covertly or overtly. I think if we move in a 
deliberate and calculated manner on those fronts--and in the 
process, we must promote democracy and human rights--there is 
no reason to freeze the relationship at any point in time.
    Mr. Royce. I see. I will turn to our ranking member. We are 
going to allow him to ask some questions here because I think a 
vote is almost upon us.
    Mr. Payne.
    Mr. Payne. Thank you very much.
    I listened to Dr. Sinai when you talked about the ability 
of chemical weapons and weapons of mass destruction that Libya 
has, and one of the things that strikes me is that it seems, as 
we move forward in time, that many countries seem like they are 
going to be able to acquire the ability--North Korea, China, 
Pakistan, India, and so forth--and I don't know if any of you 
might want to tackle it. Since it seems like it is going to be 
impossible to prevent the manufacture or the development, with 
technology and people, it even goes beyond Libya, what do you 
think we ought to be doing as a nation that is concerned about 
mass destruction or rogue states?
    Do you think we should try to go in and destroy places that 
have it? Do you think that there ought to be an opportunity to 
rework a world treaty to try to work toward elimination of 
them? Because you are going to find some little country down in 
Southeast Asia that is going to be able to work it out pretty 
soon also.
    You all are Ph.D.'s, so maybe you can tell us old 
congressmen something here.
    Mr. Sinai. You have raised some very important issues which 
I agree with. There are a number of steps that can be taken, 
short of a military campaign. I think the first step is a 
public diplomacy effort by the West to highlight and to focus 
on Libya's chemical and biological weapons program. Also, an 
effort by journalists, and investigative journalists, to try to 
uncover what is really going on.
    Second and another step might be for the United Nations 
Security Council to dispatch an inspection team to Libya to 
verify the country's compliance on this issue, and I think 
that, because Libya appears to be willing to rejoin the 
international community as a peaceful nation, that now might be 
an appropriate time to press on the Security Council to 
establish such a mission.
    Mr. El-Kikhia. I think you are going around to the issue of 
sovereignty. You cannot impose it upon Libya, of you cannot 
impose it upon Egypt or Israel or Turkey or somebody else. I 
mean, basically the Congressman is quite right in this thing, 
do we want to go the international route, and in the 
international route, you might have something like the 
nonproliferation treaty, where you have 130, 140 countries 
signing it, but then it takes effort to enact into law. But it 
seems difficult to me to say, we want you to open up so we can 
inspect; and the one next door, who has the same thing--say, 
You are OK with us, but you are not OK with us. That becomes 
very difficult indeed.
    Mr. Sinai. But not every country has been involved in 
international terrorism to the extent that Libya has. Until 
recently, Libya harbored terrorists. It has terrorist camps. It 
hasn't been directly involved in terrorist activities in the 
1990's, but it has a very significant past history in this 
area.
    Mr. El-Kikhia. I agree with you. From that point, I agree 
with you.
    Mr. Sinai. Qadhafi has also assassinated rivals.
    Mr. El-Kikhia. I have no love for Qadhafi, don't get me 
wrong, but what you must understand is that one man's terrorist 
is another man's freedom fighter. Some countries in the world 
agree with Qadhafi. Others do not agree with Qadhafi, but you 
can't apply one rule against Qadhafi and another to somebody 
else. The international system will not allow you to do that.
    Mr. Royce. There is something called international law, but 
we will go to Mr. Tancredo for his question.
    Mr. Tancredo. Thank you, Mr. Chairman. I have two actually, 
if we have time for them.
    I take by the comments earlier that--Dr. El-Kikhia, that 
you may not think it would be productive to explore the 
possibilities that may develop if Mr. Qadhafi is no longer on 
the scene. So you may not wish to respond to this, but if 
anyone else on the panel has some ideas about what might be the 
future, what we might be looking at in terms of a governmental 
structure in Libya and the individuals, more specifically the 
individuals who might rise to that challenge if Mr. Qadhafi 
were gone, I would certainly love to hear what that might be. 
That is my first question. So anybody who has some ideas along 
those lines let me know.
    Mr. El-Kikhia. I will be the first to be happy to see Mr. 
Qadhafi go out of power. He has been there for 30 years and my 
colleague here Mr. Turbi is quite right, no one suffered more 
on under Qadhafi's rule like the Libyans. All Libyans have 
suffered. The standard of living in Libya has declined 
tremendously since 1970. Libyan income has declined by 3 
percent every year since then. If anyone has to complain it is 
the Libyans. They look forward to seeing the end of Qadhafi.
    Mr. Tancredo. Dr. El-Kikhia, don't get me wrong. I was 
referring to a statement you made something about, I think it 
was the question posed to the Ambassador earlier and you said, 
in terms of the future we just don't know. So I didn't think 
you had an opinion but if you have it, I would like to hear it.
    Mr. El-Kikhia. American-Libyan relationship in the future I 
think is too early to determine what it is going to be like. We 
don't know what Qadhafi does. He is so idiosyncratic, so 
incremental, but Mr. Turbi is quite right in the sense that it 
is better to establish a relationship, even with Qadhafi, to 
change some of his policies, even though indirectly, than not 
to have a relationship with him at all.
    Mr. Tancredo. We don't have time to really go into that 
part. I still want to know, who do you think might succeed him 
and what will it look like?
    Mr. Takeyh. In terms of succession in Libya, succession in 
Libya is most difficult to decipher because for long Libya has 
not had a coherent state structure. The most likely successors 
to Qadhafi are likely to be members within the armed forces 
themselves. It is unlikely that the post-Qadhafi Libya will 
move toward a parliamentary democratic society. Now, Dr. El-
Kikhia's book has outlined numerous personalities, and most of 
us rely on his analysis on those names and personalities he 
has.
    Mr. Tancredo. I just better get the book.
    Mr. Takeyh. It is likely to be members within the armed 
forces.
    Mr. Tancredo. No significant change in direction?
    Mr. Takeyh. That is just it. There are likely to be some 
significant changes. It is unlikely the members within the 
Libyan armed forces are going to have as grandiose aspirations 
as Qadhafi. They are likely to remain concentrated to internal 
challenges and immediate challenges in the Maghreb, but they 
are likely to be involved in civil wars in the Philippines or 
Argentina and so on. So post-Qadhafi regime is likely to be a 
regime more concerned with its immediate internal affairs and 
immediate regional neighbors, Maghreb.
    Mr. Turbi. From the perspective of hoping that we might 
have democracy in Libya, Libya did experience democracy in the 
past during the King Idris reign when it had a specific 
constitution that was drafted and given to Libya to use by the 
United Nations and so forth, and then during the Qadhafi era, 
there has only been a nonconventional way of running things in 
the country.
    I have also read Mr. Kikhia's book, too. He describes it as 
being a controlled chaos in some ways. It is very hard to 
determine any place in the world that does not have any 
conventional constitution to either go in a heartbeat or stay 
for a long time. So the make-up of the Libyan people as a whole 
has many democratic elements in it, inside or outside.
    Mr. El-Kikhia. One more thing to add to your point. You 
see, you must understand even the present system that Qadhafi 
has set up, although I do call it controlled chaos, should it 
work, I think it would be very democratic; but the problem is 
he won't let it work because he has to control it. It is very 
difficult when you deal with regimes like this because they are 
idiosyncratic regimes, and events rotate around them.
    Mr. Tancredo. Thank you very much.
    Mr. El-Kikhia. The same question comes back to Castro. When 
Castro is gone, what kind of system are we going to have in 
Cuba?
    Mr. Tancredo. But you have a Ph.D.
    Mr. El-Kikhia. I do, but I am missing something, a fortune 
ball.
    Mr. Royce. We have, I think, with us the Libyan desk 
officer. Is he here?
    She is here. Make sure the notes that you take here from 
the panelists are given to the Ambassador. We would like him to 
follow the dialogue and the discussion of the Committee. You 
will do that for us, right?
    Thank you very much. We will follow up on that.
    Mr. Meeks.
    Mr. Meeks. I will stay with that topic that we have been 
talking about, diplomacy, talking, regime after Qadhafi.
    I would imagine that within the country of Libya there are 
negative viewpoints of some of the Western nations, 
particularly the United States; and if, in fact, something 
happened to Qadhafi and we had not improved our relationships 
with that, I would imagine that that kind of stereotypical 
situation would continue.
    Let me tell you where I am going. I agree with you. I 
recently went to Cuba, for example, and said, what would happen 
after Castro left? I saw every country there, but America; and 
I thought that if America was there, it would make all the 
difference to the people, forget Castro.
    The deal is with reference to how do we benefit the people 
because the people-to-people contact is what is most important. 
So for me, what I am trying to decide, how do we get to the 
point where we can talk?
    You know we talked about weapons, if I was a small country 
and I had people around me that had some weapons, that I am 
going to say, I want some also because I've got to protect 
myself. That is what happens, everybody around wants and no one 
talks to one another, and you just have the buildup of weapons.
    It might be kind of elementary, but for me, if I was 
walking down the street and somebody came up to me with a 
stick, I am not going to try to fight without a stick, I am 
going to pick something up, so I can defend myself, and I think 
that is what is happening in that whole region, and we have got 
to look for some kind of way to turn that around.
    So I guess my question is, I know that we have got to look 
at what Libya has done, particularly with reference to 
terrorism, but because--like Great Britain made a great step 
and others are making steps and recently, you can tell me what 
it means with the OAU. I know that Mr. Qadhafi attended the OAU 
meeting. In fact, he is going to host one in September. What 
does that mean? Is that something that we can get involved in, 
also with the OAU maybe, so that we can through that 
organization begin to evolve some better diplomatic relations?
    Mr. El-Kikhia. Congressman, I think as whole it has 
received much of the support from Africa and some other 
countries at least because of one issue. I think it is the 
issue of proportionality. I think there is, even though not 
overtly, but covertly, there is an understanding among many of 
these states that if I aim at you with a gun, you don't aim at 
me with a nuclear bomb, OK? It is understandable, but it is 
regrettable and maybe Libya is responsible for the Pan Am 
crisis.
    Hearing Mr. Neumann, Ambassador Neumann, and the three 
points he made--cease terrorism, be responsible with actions of 
officials, cooperate with the trial and pay compensation. When 
you put it like this, I think there should be an addendum over 
here, if those people are found guilty. I mean, unless we have 
to assume the French way of being guilty until proven innocent, 
but I think we operate under the assumption of innocent until 
proven guilty.
    I think the support that Qadhafi and Libya got throughout 
Africa and the Middle East is really because of the issue of 
proportionality that you cannot punish a people for 10 years, 
because of an incident somebody did. There has to be an issue 
of proportionality over here, and listen, 3 years ago Qadhafi 
made the same proposal of not delivering those two individuals 
to either Britain or the United States, but some other neutral 
country; and we refused that, we refused precisely the same 
proposal? He made it a long time ago, but we refused that.
    But I think the American administration right now 
understands, as well as the British, that if they did not go 
along with Qadhafi, others will start breaking the embargo 
because, again, the issue of proportionality. The punishment 
has to fit the crime somehow, and I think this support came 
precisely from the OAU and other African countries.
    Mr. Royce. We are out of time. We are going to go to Mr. 
Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I will address my 
question to any of the panel members that would like to pick up 
on any one of the questions I will ask and be happy to hear 
from you, and if you covered this in testimony that I might not 
have been here for, I apologize.
    Have we heard anything about Qadhafi's health at this 
point? What kind of condition is he in right now? What is the 
extent of the domestic opposition to the Qadhafi regime? What 
do we know about the reported assassination attempts on Qadhafi 
over the last several years? Is there any serious threat to the 
Qadhafi rule?
    Mr. Takeyh. Qadhafi is only 57 years old. I mean, in a 
region where people rule to considerably older than that, he is 
more likely than not to remain in power. Qadhafi's regime has 
been plagued by internal disturbances and difficulties. It is 
very difficult to get reliable information, but there seems to 
have been an assassination attempt about 2 years ago in which 
he was injured reportedly because his bodyguards fell on him.
    It is hard to say whether there is a credible internal 
opposition to Qadhafi. He has been very successful in 
neutralizing that, and he has for the past 30 years survived 
numerous coups and has instituted elaborate security measures 
which have weakened the armed forces; and that weakness of the 
armed forces was particularly exhibited in Chad when the 
members of the military unit could not speak to each other 
without going through central authority.
    I would say more likely than not, Qadhafi will remain in 
power, and the logical path to improvement or dealing with 
Libya is the assumption that Qadhafi will remain in power as 
opposed to start holding relations in abeyance until there is a 
post-Qadhafi regime. That is entirely speculative.
    Mr. Chabot. Does anybody else want to add anything else to 
it?
    Mr. El-Kikhia. I think you bring up a very good point, too. 
Qadhafi is so obsessed with security he doesn't sleep in the 
same place twice. The pressure is phenomenal on him. There have 
been a number of attempts I think 6 months ago there was an 
attempted coup against him, and actually a grenade was thrown 
at him, but it didn't explode. It did not explode at all.
    He is young. He is still young. He is in his fifties, and 
there is no reason why he can't go on until his eighties.
    You see, more important, I call it controlled chaos because 
you have a situation where he forestalls these coups from 
taking place. I will give you a simple example in the military.
    Rank doesn't really mean too much. You can be a general in 
the military, you can be a colonel, but if you are not a member 
of the revolutionary committee, a member in the revolutionary 
committee who is a private may give you an order. So, you see, 
you would like to put some order to disorder based on your own 
experience within a society where there is rank and file and 
there is a hierarchy of things. In Libya, things don't work 
that way. They don't work that way at all.
    Mr. Sinai. I would like to make one observation about that. 
Qadhafi has transformed the armed forces and has abolished the 
rank of general. That is why he is known as Colonel Qadhafi.
    Mr. Chabot. Dr. Sinai, let me ask you one question, too. 
You said something about the potential of a U.S. or, excuse me, 
an inspection team of some sort because of the weapons of mass 
destruction program, et cetera. What makes you think that that 
would be any more successful than Iraq, where it seems like the 
inspectors went in the front door and the trucks are loading up 
and going out the back door? I don't feel particularly 
confident that we were making the progress that maybe the 
public was led to think we were making there.
    Would you like to comment on that?
    Mr. Sinai. One reason it may be more effective is that 
Qadhafi appears to be willing to rejoin the international 
community as a peaceful nation. This would be one test to 
validate the sincerity of his commitment.
    Mr. Chabot. Thank you. I yield back the balance of my time.
    Mr. Royce. Mr. Campbell.
    Mr. Campbell. Mr. Chairman, thank you. I have a question 
that is for any member of the panel. It is the most important 
question I want to ask, and then I will ask a second one if I 
have time, but this is the one I want to ask first. The bombing 
of Benghazi and Tripoli under President Reagan is frequently 
brought forward in the circles of politics and government where 
I participate--admittedly at a very low level--as the example 
that, ``you see, Qadhafi he changed his behavior, we bombed and 
his support for terrorism changed. We bombed and he altered his 
behavior.''
    I heard, and for the life of me I can't tell you where, nor 
if it is official, but I heard that several years thereafter we 
became convinced that Qadhafi was not responsible for the La 
Belle disco bombing in Europe, which was a predicate for our 
bombing Libia. Then I thought, maybe it was a very successful 
strategy; Qadhafi must have thought we were nuts to bomb when 
they weren't responsible, and maybe this created a very good 
deterrent, although a very strange one, to think we would bomb 
him for some act that he did not do, just because he might 
have.
    I have got to tell you this argument is alive and well 
today. People still argue, ``look, see, we got Qadhafi to 
change because we bombed,'' and if I bring up the fact that 
subsequent evidence proved he wasn't the one at fault, people 
don't seem to remember that. Maybe my fact premise is false. So 
I would like the opinion of any member of the panel, what 
effect did that bombing have on Qadhafi's behavior, because the 
myth is, as I have described it; and if it is a myth, I would 
like to have that exposed, and if it is true, I would like to 
know that as well.
    The second question, is this. I know President Isayas of 
Eritrea visited Qadhafi recently, and I am troubled about any 
possible play of Libya in the Eritrean-Ethiopian war, but the 
first question is the one that concerns me most.
    Mr. Takeyh. One thing I will say is that the bombing of 
1986, it is unclear whether it changed Qadhafi's policies or 
not. There were other factors in the late 1980's including the 
decline of the petroleum market and others that placed stress 
on Qadhafi's regime, but it did exacerbate internal dissension, 
particularly within the military, as it exposed it to further 
risks that it was unwilling to bear, particularly at the time 
when Libya's economy began to disintegrate. So it did cause 
members of the military, which is the only institution cohesive 
enough to succeed Qadhafi in Libya, to be further suspicious of 
Qadhafi's conduct.
    Mr. El-Kikhia. The other factor here, I have heard it from 
more than one source is that perhaps it was a renegade 
Palestinian group, Syria might have been involved in the 
process as well and even Iran. I mean, the funny thing is that 
the United States does not present the proof, citing that it 
was to preserve its intelligence sources, but you must 
understand something which I think really may be a fault in 
American foreign policymaking, and I think the executive branch 
used that often not only to convince us, or outsiders, but also 
to convince you. What do they do?
    The executive branch basically exaggerates the threat and 
oversells the solution constantly. So you make Qadhafi this 
huge ogre.
    Mr. Campbell. Time is running out. I am sorry. On the 
specific example, did Qadhafi alter his behavior following the 
bombing?
    Mr. El-Kikhia. Qadhafi has always been an opportunist, so 
whenever he feels that the opportunity is there, he will move; 
then he backs off and sees the reaction. I don't think he 
changed the behavior so much. He just chose a different route, 
different way.
    Mr. Campbell. Dr. Sinai, do you have any point of view or, 
Mr. Turbi, do you have any point of view on this?
    Mr. Sinai. I would like to come back to the idea of 
proportionality. Libya's weapons of mass destruction do pose a 
threat. Former CIA Director John Deutch has called Tarhuna, the 
chemicals weapons plant, the largest chemical weapons facility 
in the Third World. Why has it been built? Is it a 
pharmaceutical facility?
    Mr. Campbell. Do you remember my question? Could you 
respond to my question? Did Qadhafi alter his behavior after we 
bombed?
    Mr. Sinai. I think it did constrain his behavior to some 
extent, and the sanctions have also constrained his behavior.
    Mr. Campbell. Mr. Turbi, do you have an opinion on this?
    Mr. Turbi. I can't help but see your burning desire to get 
an answer to that question, and I don't think anybody can give 
you an answer because that is very subjective.
    We do everything very subjective, don't we?
    Mr. Campbell. Thank you.
    Thank you, Mr. Chairman.
    Mr. Royce. I want to thank all of the witnesses, and I 
think we have had a very good discussion here today. We do have 
a 30-year track record to go on. We are all hopeful from what 
we have seen of late that maybe that track record is going to 
change.
    At the same time, I will say that I have heard a comment 
about a positive constructive engagement of Libya through 
Qadhafi's efforts in sub-Saharan Africa. I would just have to 
say, based upon my experience and based upon what I have seen 
in Sierra Leone in terms of the mayhem and tragedy that has 
occurred there, I don't see the engagement as having been all 
that constructive. But perhaps we are at a fork in the road, 
and maybe the future will bring a different sort of engagement 
and a different set of responses from the Government of Libya.
    I want to thank our witnesses for traveling here, and I 
want to thank the Committee Members for their patience. Thank 
you very much.
    We are adjourned.
    [Whereupon, at 4:37 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 25, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3272.001
    
    [GRAPHIC] [TIFF OMITTED] T3272.002
    
    [GRAPHIC] [TIFF OMITTED] T3272.003
    
    [GRAPHIC] [TIFF OMITTED] T3272.004
    
    [GRAPHIC] [TIFF OMITTED] T3272.005
    
    [GRAPHIC] [TIFF OMITTED] T3272.006
    
    [GRAPHIC] [TIFF OMITTED] T3272.007
    
    [GRAPHIC] [TIFF OMITTED] T3272.008
    
    [GRAPHIC] [TIFF OMITTED] T3272.009
    
    [GRAPHIC] [TIFF OMITTED] T3272.010
    
    [GRAPHIC] [TIFF OMITTED] T3272.011
    
    [GRAPHIC] [TIFF OMITTED] T3272.012
    
    [GRAPHIC] [TIFF OMITTED] T3272.013
    
    [GRAPHIC] [TIFF OMITTED] T3272.014
    
    [GRAPHIC] [TIFF OMITTED] T3272.015
    
    [GRAPHIC] [TIFF OMITTED] T3272.016
    
    [GRAPHIC] [TIFF OMITTED] T3272.017
    
    [GRAPHIC] [TIFF OMITTED] T3272.018
    
    [GRAPHIC] [TIFF OMITTED] T3272.019
    
    [GRAPHIC] [TIFF OMITTED] T3272.020
    
    [GRAPHIC] [TIFF OMITTED] T3272.021
    
    [GRAPHIC] [TIFF OMITTED] T3272.022
    
    [GRAPHIC] [TIFF OMITTED] T3272.023
    
    [GRAPHIC] [TIFF OMITTED] T3272.024
    
    [GRAPHIC] [TIFF OMITTED] T3272.025
    
    [GRAPHIC] [TIFF OMITTED] T3272.026
    
    [GRAPHIC] [TIFF OMITTED] T3272.027
    
    [GRAPHIC] [TIFF OMITTED] T3272.028
    
    [GRAPHIC] [TIFF OMITTED] T3272.029
    
    [GRAPHIC] [TIFF OMITTED] T3272.030
    
    [GRAPHIC] [TIFF OMITTED] T3272.031
    
    [GRAPHIC] [TIFF OMITTED] T3272.032
    
    [GRAPHIC] [TIFF OMITTED] T3272.033
    

</pre></body></html>
